<html>
<title> - TO PROVIDE FOR AND APPROVE THE SETTLEMENT OF CERTAIN LAND CLAIMS OF THE BAY MILLS INDIAN COMMUNITY, AND TO PROVIDE FOR AND APPROVE THE SETTLEMENT OF CERTAIN LAND CLAIMS OF THE SAULT STE. MARIE TRIBE OF CHIPPEWA INDIANS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
TO PROVIDE FOR AND APPROVE THE SETTLEMENT OF CERTAIN LAND CLAIMS OF THE 
    BAY MILLS INDIAN COMMUNITY, AND TO PROVIDE FOR AND APPROVE THE 
  SETTLEMENT OF CERTAIN LAND CLAIMS OF THE SAULT STE. MARIE TRIBE OF 
                            CHIPPEWA INDIANS

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON

                        H.R. 2176 and H.R. 4115

                               __________

                             MARCH 14, 2008

                               __________

                           Serial No. 110-98

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                                ______

                     U.S. GOVERNMENT PRINTING OFFICE
41-419 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel


                            C O N T E N T S

                              ----------                              

                             MARCH 14, 2008

                                                                   Page

                               THE BILLS

H.R. 2176, ``To provide for and approve the settlement of certain 
  land claims of the Bay Mills Indian Community''................     2
H.R. 4115, ``To provide for and approve the settlement of certain 
  land claims of the Sault Ste. Marie Tribe of Chippewa Indians''     6

                           OPENING STATEMENTS

The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................     1
The Honorable Lamar Smith, a Representative in Congress from the 
  State of Texas, and Ranking Member, Committee on the Judiciary.    11

                               WITNESSES

The Honorable Carolyn C. Kilpatrick, a Representative in Congress 
  from the State of Michigan
  Oral Testimony.................................................    12
  Prepared Statement.............................................    14
The Honorable Shelly Berkley, a Representative in Congress from 
  the State of Nevada
  Oral Testimony.................................................    16
Mr. Carl Artman, Assistant Secretary, Bureau of Indian Affairs, 
  U.S. Department of the Interior
  Oral Testimony.................................................    20
  Prepared Statement.............................................    21
Chief Fred Cantu, Saginaw Chippewa Tribe of Michigan
  Oral Testimony.................................................    23
  Prepared Statement.............................................    24
Alice E. Walker, Esquire, Sault Ste. Marie Chippewa Tribe
  Oral Testimony.................................................    25
  Prepared Statement.............................................    26
Ms. Kathryn Tierney, Tribal Attorney, Bay Mills Indian Community
  Oral Testimony.................................................    27
  Prepared Statement.............................................    28

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of Dr. Guy Clark, Chairman of the National 
  Coalition Against Gambling Expansion...........................    19


TO PROVIDE FOR AND APPROVE THE SETTLEMENT OF CERTAIN LAND CLAIMS OF THE 
    BAY MILLS INDIAN COMMUNITY, AND TO PROVIDE FOR AND APPROVE THE 
  SETTLEMENT OF CERTAIN LAND CLAIMS OF THE SAULT STE. MARIE TRIBE OF 
                            CHIPPEWA INDIANS

                              ----------                              


                         FRIDAY, MARCH 14, 2008

                          House of Representatives,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Committee met, pursuant to notice, at 10 a.m., in Room 
2141, Rayburn House Office Building, the Honorable John 
Conyers, Jr. (Chairman of the Committee) presiding.
    Present: Representatives Conyers, Johnson, Smith, 
Sensenbrenner, Coble, Chabot, Issa, King and Jordan.
    Staff Present: Diana Oo, Majority Counsel; George Slover, 
Majority Counsel; Perry Apelbaum, Staff Director and Chief 
Counsel; Kimani Little, Minority Counsel; and Sean McLaughlin, 
Minority Chief of Staff and General Counsel.
    Mr. Conyers. Top of the morning, Ms. Berkley, Ms. 
Kilpatrick.
    Ms. Berkley. Hi.
    Ms. Kilpatrick. Hi.
    Mr. Conyers. The Committee will come to order.
    This morning, we're here to consider two bills that propose 
to settle the land claims of two tribes from Michigan's Upper 
Peninsula, the Bay Mills Indian Community and the Sault Ste. 
Marie Tribe of Chippewa Indians, and allow them to establish 
casinos in Romulus and Port Huron, Michigan, over 350 miles 
away from their reservations.
    [The bill, H.R. 2176, follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    [The bill, H.R. 4115, follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Conyers. Concerns have been raised about the legitimacy 
and the fairness of these land deals.
    First, these bills would drastically change how casinos can 
be approved, not just in Michigan but all over the country. 
Under existing Federal law, the Department of the Interior 
determines whether to take off reservation land into trust for 
an Indian tribe to use to run casino gaming after carefully 
considering numerous criteria and giving special scrutiny if 
the new land is farther--quote, farther--thank you, Mr. 
Sensenbrenner. We appreciate that--and if--quote,if the new 
land, is quote, farther than a commutable distance from the 
reservation. End quotation.
    Without these constraints, there would seem to be no limit 
to how far Indian gaming could be spread, which would be far 
beyond reasonable bounds.
    These bills would also alter central provisions of the 1993 
compacts that both these tribes signed with the State of 
Michigan. Circumventing these and other existing legal 
processes could set a very bad precedent. The Sault Tribe 
itself acknowledge as much in the 2002 congressional testimony 
regarding the same claim before it became a party to it.
    I am also troubled by the fact that these bills would 
overturn the express wishes of the residents of Michigan.
    In 1994, they passed a State-wide referendum to allow three 
and only three private casinos to be built in the State and in 
the City of Detroit.
    In 2004, they passed another State-wide referendum to 
strictly limit the expansion of private gaming in Michigan. Any 
new private gaming facility must be approved by both a local 
and a State-wide vote. This referendum would still allow the 
city support hearing in Romulus to pursue casinos, but they 
would have to do exactly what the City of Detroit did, one, get 
the approval of the voters in the State of Michigan.
    Both cities have already passed local referendums, so they 
are already half way there, in a manner of speaking, but they 
need to go the full distance.
    And then, finally, authorizing the casinos in Port Huron 
and Romulus in this fashion would unfairly disadvantage the 
city of Detroit, to put it mildly. The city has suffered from a 
sharp decline in the number of manufacturing jobs over the last 
decade. The great people of the city have been working 
extremely hard in recent years to improve its economy and 
increase its competitiveness.
    Our efforts have brought visible signs of economic 
progress. The city has attracted new hotels, luxury 
condominiums and new construction going on over all parts of 
the city. It has built employment training centers and new 
housing projects. It has succeeded in convincing major regional 
employers to move their headquarters into downtown Detroit.
    A crucial precursor to all these developments was the 
establishment of the three casinos in the city. A few months 
ago, MGM Grand opened a new $800 million hotel and casino. 
Undoubtedly, MGM would probably not have made that kind of 
investment if it knew that Congress would be considering 
shoehorning in additional casinos right outside its borders.
    The three casinos have provided over $1 billion thus far in 
taxes and percentage payments. The city also has received 
another $100 million in municipal service fees. This revenue 
allows the city to invest in critical infrastructure and 
services for its residents.
    In addition to being a good source for revenue for the 
city, the casino employs nearly 8,000 residents. These are 
well-paying jobs. Most of them are union and have brought 
tremendous health care benefits to people who were in desperate 
need of quality health care coverage.
    So let's have a discussion about the issue before us this 
morning. The Judiciary Committee will be addressing these 
concerns and will be taking your recommendation quite 
seriously.
    Between the two distinguished Members of Congress, which 
one would like to precede the other?
    Ms. Kilpatrick. Thank you, Mr. Chairman. I would proceed 
first, if that is okay with the Chair.
    Mr. Conyers. All right and that meets with the approval of 
the gentlelady from Nevada, I presume.
    Ms. Berkley. Absolutely.
    Mr. Conyers. Turn your mic on. Caroline.
    Ms. Berkley. Okay. Did I get it? Yes.
    Mr. Conyers. Yes.
    Carolyn Kilpatrick distinguished Member of the 
Appropriations Committee, a former State legislator herself and 
the Chair of the Congressional Black Caucus--may I just 
interrupt myself for a moment?
    Lamar Smith has agreed to make his opening statement now so 
that we get a fuller picture of the view of the Members of the 
Committee. The distinguished Ranking Member from Texas is 
recognized.
    Mr. Smith. Thank you, Mr. Chairman, and I always appreciate 
your graciousness. I only hope I'm not interfering or 
disrupting too much, but it is nice to be on the same side.
    I join Chairman Conyers in opposing these bills, H.R. 2176 
and H.R. 4115. I share Chairman Conyers' concerns with these 
bills, but I oppose them for other reasons as well.
    These bills transfer land from the State of Michigan to two 
Indian tribes. The tribes will be allowed to use this land to 
build casinos or other gaming establishments. I am concerned 
that building more casinos will turn more people into 
compulsive gamblers and lead to higher crime rates.
    The link between gambling and crime is real. A 2004 study 
by the Department of Justice indicated that more than 30 
percent of pathological gamblers studied committed a robbery 
within a year of their arrest. The study also stated that 
nearly one-third of those arrested admitted they committed the 
robbery to pay for gambling or gambling debts.
    In addition, the same study found that 13 percent of those 
studied said they had assaulted someone to get money. According 
to the study, 25 percent of those assaults were related to 
gambling.
    Even proponents of Indian gambling admit the limitations of 
legalized gambling.
    Although casinos do bring some economic benefit to many 
impoverished Native American communities, some tribes have 
found that gaming is not a silver bullet for their overwhelming 
needs. The pro-gaming National Congress of American Indians 
states, ``Even after the advent of gaming, Indian reservations 
continue to have a 31 percent poverty rate and a 46 percent 
unemployment rate.'' They also note Indian health and education 
statistics are among the worst in the country.
    Further, these bills circumvent the well-established 
Department of Interior process to evaluate the environmental 
impact of a land transfer before approval. This Committee 
should ensure that established procedures are followed in every 
instance.
    Mr. Chairman, I am opposed to legislation--this legislation 
that, in my judgment, would in lead to increased gambling. And 
I share the Chairman's concerns and I join him, as I say, in 
opposing these bills, and I certainly will encourage my 
colleagues to do the same.
    Mr. Chairman, thank you again for yielding me time to make 
this opening statement.
    Mr. Conyers. Thank you very much, Lamar Smith.
    Could I call on a senior Member of the Committee, Howard 
Coble of North Carolina, and ask if he wanted to welcome our 
congressional witnesses or make any comments about the subject 
matter?
    Mr. Coble. Thank you, Mr. Chairman. I'm sure you and the 
distinguished Ranking Member have adequately and appropriately 
addressed the issue.
    Welcome to our colleagues, and I yield back.
    Mr. Conyers. May I invite Steve King, the gentleman from 
Iowa, to make any comments or welcoming remarks to our 
congressional witnesses?
    Mr. King. I thank our genteel Chairman for offering me the 
opportunity.
    I would like to welcome our witnesses to the panel.
    Sometimes I find myself on the privilege of sitting on the 
other side of this thing, and I want to state that I'll 
maintain that level of collegiality that we maintain here on 
the panel with the witness, and I look forward to your 
testimony.
    I thank you, and I yield back.
    Mr. Conyers. Thank you very much, Steve.
    I was introducing Carolyn Kilpatrick, my distinguished 
colleague from the Detroit area, who has been an outstanding 
State legislator, an activist in the civil rights struggle and 
a distinguished Member of the Appropriations Committee. We have 
your statement, and all statements will be put in the record, 
both of Members and witnesses. So I ask Chairwoman Kilpatrick, 
who is, additionally, the Chair of the Congressional Black 
Caucus, 43 members strong, and invite her for her 
recommendations and views on the subject matter that bring us 
here today.

      TESTIMONY OF THE HONORABLE CAROLYN C. KILPATRICK, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF MICHIGAN

    Ms. Kilpatrick. Thank you, Mr. Chairman, Ranking Member Mr. 
Smith, thank you very much, and Members of the Committee.
    Thank you, first of all, for holding the hearing. I started 
in Resources, the head of a full Subcommittee hearing as well 
as a full Committee hearing, and I'm happy that Judiciary is 
continuing your responsibility to look at these bills.
    You have my full statement, and thank you for putting it in 
the record. I will summarize briefly.
    We oppose these bills for a number of reasons.
    Twenty years ago, the City of Detroit, under the leadership 
of Mayor Coleman Young, begin the journey to bring casinos to 
Detroit. We lost two local referendums before we finally won a 
local referendum and then went to the State Capitol where we 
did win another referendum and allowed three casino companies 
to build in my district all three casinos. They are now 
operating. Two have now built temporaries and are now moving on 
to permanent sites.
    And, as the Chairman mentioned, MGM has built a permanent 
site, over $800 million, that just opened a couple of weeks 
ago. They have been good neighbors, good citizens; and because 
of the city's action, because of the State legislature's 
passing legislation in 2004 and 1994 that said, yes, you can go 
ahead, yes, these would be the only casinos in this State, and 
if a community wanted to build a casino there are steps they 
had to follow as well, local referendum, back to the 
legislature and so forth.
    This bill will circumvent all of that. These are dangerous 
bills and a precedent that I don't think this Congress wants to 
set. It really is opposing Michigan law, as I just explained to 
you. It is controversial among the Native American tribes in 
our State. There are 12 tribes, 12 tribes opposing this 
legislation and only 2 supporting and, I might mention, the 2 
that are going to be helped if this happens.
    The city would lose thousands of jobs. Major investments 
from the people who have been with us for the last 10 years who 
built the temporaries and now the permanent casinos will be 
certainly at a loss.
    This new casino--one of them is 15 minutes from the three 
that we already have in Michigan, plus one across the river in 
Canada. For the reasons that Ranking Member Smith mentioned--
and I don't gamble. It's legal, but I don't, and I don't want 
anybody I love to gamble. It is a terrible habit to get in. And 
I get calls in my office all the time from children about 
parents, grandparents about sons and daughters and all of that. 
Four casinos within 10 miles of each other is more than enough 
for two-thirds of the population from Michigan lives in my 
area, and these casinos serve them well.
    The Bureau of Indian Affairs already rejected this matter. 
The Interior Department is being looking at the matter still. I 
don't think we should circumvent their authority. They are the 
rightful people to do. Indian Affairs has already rejected it, 
Interior is looking at it, and, on top of all of that, it is 
very uncertain.
    And you will hear from the ancestral tribe whose land this 
is that this may be reservation shopping, an illegal deal. And 
I'm sure this Congress does not want any more illegal actions 
coming to us from something that might not be just sound 
enough.
    So I would urge the Committee to take your time to look at 
it closely for all the reasons that both the Chairman and the 
Ranking Member already discussed, that we look and take our 
time with a bill I am still opposing for the reasons that have 
been mentioned. Eight thousand jobs have been created, over a 
billion dollars in our area, sorely needed at a time when 
manufacturing in America, let alone in Michigan, has been 
decimated.
    So, thank you, Mr. Chairman and Members of the Committee. 
We hope you will oppose these bills, and I yield back the 
balance of my time.
    Mr. Conyers. Thank you very much, Carolyn Kilpatrick. You 
are getting us off to a very good and fast start. I don't know 
what Shelly Berkley is going to say about one part of your 
comments, but we will soon find out.
    Since our two congressional witnesses are under the same 
time constraints as we are and there will not be questions 
asked of them, if you want to leave now or whenever you want to 
leave--you are welcome to stay here as long as you can, but you 
are also able to leave. We're grateful for your testimony.
    [The prepared statement of Ms. Kilpatrick follows:]

     Prepared Statement of the Honorable Carolyn C. Kilpatrick, a 
         Representative in Congress from the State of Michigan

    Chairman Conyers, Rahall, Ranking Minority Member Smith, and 
Members of the House Judiciary Committee:
    Thank you for holding this hearing today. I also want to thank 
Chairman Conyers, Ranking Minority Member Smith, and Speaker Pelosi for 
allowing these bills to be consecutively referred so that the Judiciary 
Committee can do their due diligence on these bills. In essence, both 
of these bills will allow two Native American tribes located in 
Michigan's Upper Peninsula to build casinos 350 miles from their 
reservations and near the City of Detroit.
    My reasons for opposing these bills, which will allow land to be 
taken into trust for gambling purposes for the settlement of proposed 
land claims, are actually very simple. These bills set a dangerous 
precedent for Congress; they contravene Michigan state law; they are 
very controversial among the Tribes in Michigan and throughout Indian 
Country; it is not clear that these land swaps are valid; and finally, 
Congress has not had a comprehensive review of the Indian Gaming 
Regulatory Act (IGRA) in nearly two decades. Furthermore, it is 
important to note that these land claims have never been validated by 
the U.S. Government or any court of law. In fact, the courts have ruled 
against the Bay Mills Tribe on their claim on two separate occasions.
    The people of Michigan have spoken at the ballot box about gaming 
expansion in our state. In 1994, they voted to allow three casinos in 
the City of Detroit. In 2004, the people voted to limit any more 
expansion of gaming unless there was a statewide referendum. In 
addition, the Michigan Gaming compact specifically prohibits off-
reservation gaming unless all of the Tribes in Michigan agree to a 
revenue-sharing plan. These two bills are simply an attempt to 
circumvent both the will of the people of Michigan and the compact the 
Michigan State Legislature has made with the Tribes in Michigan.
    Instead, these bills would have Congress mandate not one, but two 
off-site reservation casinos located over 350 miles away from the 
reservations of these Tribes. Moreover, the disputed land is located 
near the two Tribes reservations in the Upper Peninsula but yet the 
land they want for a ``settlement'' is located 350 miles away near the 
City of Detroit. If these bills were to become law, what would prevent 
other Tribes from seeking a land claim anywhere in the United States 
for off-site reservation gaming? Is this the real intent of the Indian 
Gaming Regulatory Act?
    It is indeed ironic that in the 109th Congress, the House Resources 
Committee, on a bi-partisan basis, passed legislation by an 
overwhelming margin to restrict off-site reservation gaming. Yet today, 
it now seeks to expand Native American gaming in an unprecedented 
manner.
    Congress passed the Indian Gaming Regulatory Act in 1988 that 
allows Tribes to conduct gaming on lands acquired before October 17, 
1988. In 1993, former Governor John Engler negotiated a gaming compact 
with the seven federally-recognized Tribes in Michigan, including the 
Bay Mills and Sault Ste. Marie Tribes.
    In order to prevent a proliferation of Indian gaming across the 
state, a provision was added to the compact that required any revenue 
generated by off-reservation gaming be shared among the Tribes who 
signed the compact. This provision has worked well for over 15 years. 
The two bills before the House Resources Committee would simply nullify 
this critically important provision of the Michigan Gaming Compact. 
Both of these bills would allow the Tribes to; 1) settle a land claim 
that has never been validated and is located near their reservations in 
the Upper Peninsula of Michigan and 2) acquire lands 350 miles from 
their reservation to build casinos. Furthermore, these bills actually 
include gaming compacts in them that were never approved by the 
Michigan State Legislature who has approved every other gaming compact. 
It is important to note that Congress has never passed a gaming compact 
in the history of Indian gaming. IGRA specifically grants that 
authority to the states.
    In 2004, the voters of Michigan spoke again in a state-wide 
referendum and overwhelmingly approved a ballot initiative that would 
restrict the expansion of gaming in the state of Michigan. This 
referendum would require local and state-wide approvals for any private 
expansion of gaming in Michigan.
    The people and the elected officials of Michigan already have a 
solution to this matter--the ballot box. There is nothing in the 
referendum that would prevent the two Tribes and their non-Indian 
developers from initiating a statewide referendum to get casinos in 
Port Huron and in Romulus. In fact, both of those cities have already 
passed local referendums. But the Tribes and their developers decided 
to short-circuit the vote of the Michigan people and come to Congress 
to get a casino on a proposed land claim that is located near the 
Tribes reservation lands in the Upper Peninsula of Michigan.
    I am aware that the Governor of Michigan has sent the House Natural 
Resources Committee a letter supporting these bills. You should know 
that there is no legal basis for the State to support these agreements 
because, in fact, the State has already won this case in the Michigan 
Court of Claims and the Bay Mills Tribe appealed it all the way to the 
U.S. Supreme Court. The Supreme Court subsequently declined to hear the 
case.
    The Governor ignored the fact that the city of Detroit will be the 
main victim of the states largess in these casino deals. The city of 
Detroit will lose hundreds of millions of dollars as a result of the 
competition of these new casinos and that will cause irreparable harm. 
Harm to whom? Harm to the current investors of the casinos in the City 
of Detroit, who have invested more than $1.5 billion in the 
construction of the three casinos in the City of Detroit. Harm to the 
thousands of jobs that have been created and the tax revenue that those 
jobs generate for the City of Detroit and the State of Michigan. 
Ultimately, this will harm the State. When compared to their private 
counterparts, Native American gaming sites, because they are sovereign 
nations, and must share their revenue with other Native American 
tribes, do not bring in the tax revenue of private investors.
    In the end, these two Tribes are seeking to do an end-run around 
two statewide referendums and the Michigan Gaming Compact of 1993. 
Rarely have voters in any state in this country spoken so clearly on 
gaming issues. In light of all of this, it would be a travesty for 
Congress to mandate two off-site reservation gaming casinos that would 
have such negative impact on the people in Michigan.
    But, for the moment, let us ignore the impact that these bills will 
have on the City of Detroit. Let us ignore the precedent that these 
bills will set, allowing any Native American tribe to claim any piece 
of land hundreds of miles away, as their native tribal land. Let us 
ignore the fact that IGRA has not been reauthorized in more than two 
decades, and clearly needs to be revisited and revised by Congress. 
What I cannot ignore is the strong possibility that the very integrity 
of Congress is in jeopardy.
    On October 10, 2002, in testimony before the Senate Committee on 
Indian Affairs, The Chairman of the Sault Ste. Marie Tribe, Bernard 
Boushor, said ``the Bay Mills case was a scam from the start.'' In 
testimony and information provided to the House Natural Resources 
Committee in February of this year, Saginaw Chippewa Chief Fred Cantu 
cited Chairman Boushor's testimony, stating that the original lawsuit 
on the land claim was a collusive lawsuit. I have provided Chairman 
Boushor's statement to be included as part of today's testimony.
    I would strongly encourage the Committee to carefully read these 
documents on how this land claim actually began. The proponents of this 
legislation have repeatedly stated that these bills are simply to 
address the aggrieved landowners in Charlotte Beach. But according to 
the Sault Ste. Marie Tribe ``the Charlotte Beach claim did not 
originate with Bay Mills. It was a product of a Detroit area attorney 
who developed it specifically as a vehicle to obtain an IGRA casino . . 
. the goal was never to recover the Charlotte Beach lands.''
    How was this originally a collusive lawsuit? The Bay Mills Tribe 
sued Mr. James Hadley on October 18, 1996 who entered into a settlement 
in which he gave land to the Bay Mills Tribe 300 miles from their 
reservation to build a casino in Auburn Hills, Michigan. That plan was 
rejected by the Department of Interior. The point is that Mr. Hadley 
was not an aggrieved landowner, he was an active participant in what 
the Sault Tribe described as ``a collusive lawsuit'' and ``a scam.''
    I strongly encourage all of you to read the testimony of the former 
Sault Ste. Marie Chairman before the Senate Committee on Indian 
Affairs, the testimony of the Saginaw Chippewa Chief Fred Cantu, and 
review the documents Chief Cantu provided to the Committee, which was 
provided to the House Natural Resources Committee at its hearing in 
February.
    There is a way to save the integrity of Congress. The Saginaw 
Chippewa Tribe has requested that the U.S. Department of Interior 
investigate the land claims made by these Tribes, and determine whether 
they are valid claims, worthy of federal resolution. It is my 
understanding that the Department of the Interior is reviewing the 
validity of these land claims. I would urge the Committee to wait until 
this investigation is complete until it rushes into passing legislation 
that mandates off-reservation gaming.
    I thank the Committee for its time. Congress should not be in the 
business of handing out off-site reservation gaming casinos. It is my 
hope that the wisdom of the Committee and of Congress is the rejection 
of both of these bills for the following reasons:

        <bullet>  These bills set a dangerous precedent for Congress by 
        approving a compact which is a state, not a federal, 
        responsibility;

        <bullet>  They contravene Michigan state law;

        <bullet>  They are controversial among the Native American 
        tribes in Michigan; indeed, nine out of Michigan's 12 tribes 
        oppose these bills;

        <bullet>  The City of Detroit would lose thousands of jobs and 
        hundreds of millions of dollars in the investments made by the 
        three casinos currently operating in Detroit;

        <bullet>  The Bureau of Indian Affairs has already rejected a 
        similar application for gaming in Romulus, Michigan;

        <bullet>  These bills would involve the removal of valuable 
        land from the tax rolls of the State of Michigan, resulting in 
        the potential loss of even more revenue;

        <bullet>  It is uncertain that these land swaps are legitimate, 
        possibly jeopardizing the integrity of the U.S. Congress;

        <bullet>  The Committee should allow the Department of Interior 
        the time to do their due diligence to determine if these are 
        valid land claims; and

        <bullet>  Congress needs to revisit, revise and reauthorize the 
        IGRA, which has not had a comprehensive review in nearly two 
        decades.

    Again, I thank the Chairman and the Ranking Minority Member for 
this hearing. The Committee must reject these bills based on the merit 
of the will of the people of the City of Detroit and the State of 
Michigan.

    Mr. Conyers. Shelly Berkley, Las Vegas, Nevada--that tells 
you something right there. That speaks worlds of information 
about this distinguished lady.
    Shelly Berkley has distinguished herself on the Ways and 
Means Committee, the Veterans Affairs Committee. She's been 
strongly active in Foreign Affairs as one of the causes that 
attract her great talent. She has been looking at this issue 
for quite a while, and I'm happy that she was able to come 
before the Committee today.
    We recognize you, Shelly Berkley, for your comments and 
your views on the subject.

TESTIMONY OF THE HONORABLE SHELLY BERKLEY, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF NEVADA

    Ms. Berkley. Thank you very much, Mr. Chairman; and thank 
you, Mr. Smith, Ranking Member, and all of the Committee 
Members who have come today to listen to us testify on this 
very important issue.
    I appreciate the opportunity to speak today on an issue 
that we have been dealing with in Congress for more than 5 
years now, and it keeps rearing its ugly head again and again. 
I'm especially thankful to you, Mr. Chairman, for obtaining a 
referral of these bills to your Committee in order to more 
fully investigate their potential impact. After listening to 
your opening remarks, I'm not sure that there is much that I 
can add to your body of knowledge, but I certainly shall try.
    I strongly oppose the bills offered by my colleagues, Mr. 
Dingell and Mr. Stupak, because they offer a blueprint to any 
Indian tribe who wants to circumvent the laws regulating Indian 
gaming in order to build a casino outside the boundaries of its 
sovereign territory.
    For those of you who are not aware, I not only represent 
Las Vegas but I grew up in Las Vegas, the gaming capital of the 
world. I'm living proof of the positive impact gaming can have 
on a community.
    My father moved his family to Las Vegas 45 years ago when I 
was a young girl. He was a waiter. On a waiter's salary, he put 
food on our table, clothes on our back and a roof over our 
heads. And that's not a bad thing on a waiter's salary. He also 
put two daughters through college and law school.
    Now while I respect everybody's opinion about gambling, I 
think I must say that, while I was raised in Las Vegas and 
subjected to gaming all of my life, I don't drink, I don't 
smoke, I don't gamble, I haven't assaulted anybody, I'm debt 
free.
    Mr. Conyers. As they say, as far as we know.
    Ms. Berkley. As far as I know. And I'm not unique. I think 
I'm rather representative of the people that I do represent.
    I certainly don't begrudge the Bay Mills or Sault Ste. 
Marie Tribe or the Michigan communities at Port Huron and 
Romulus their desire to participate in this successful 
industry. But I do take issue with them attempting to flout the 
laws on Indian gaming, come to Congress for the worst type of 
special interest, special legislation and compete with existing 
facilities under an entirely different set of rules that they 
would like Congress to implement.
    We have a Federal law on the books that governs the process 
for approving gaming by native Indian tribes. It's called the 
Indian Gaming Regulatory Act. Under IGRA, the Bureau of Indian 
Affairs can approve gaming on newly acquired land taken into 
trust under very limited circumstances.
    In the case of the Bay Mills and Sault Tribes, each of 
which already has gaming on its reservation land, a suspect 
land claim was used as a bargaining chip in settlements with 
the Governor in which the tribes agreed to renounce their claim 
and receive alternate properties which just so happened to be 
in locations more conducive to gaming, namely, near the 
population center of Detroit. In fact, a representative of the 
Sault Tribe described the deal as shady in his Senate testimony 
in 2002, but that was before his tribe joined the party and 
stood to benefit from this.
    In addition to the suspect land claim, which has been 
tossed out of both State and Federal court, the settlement 
reached with former Michigan Governor John Engler to allow 
gaming at Port Huron and Romulus, which, incidentally, are part 
of the ancestral lands of a different tribe, the Saginaw 
Chippewa, violates Michigan tribal gaming compact which 
requires that any new off-reservation gaming have the support 
of all the tribes in the State.
    As Mrs. Kilpatrick has already testified, most of the 
tribes in the State are opposed to this, so these settlements 
do not have that support.
    Residents of Detroit can attest to the role gaming has 
played in transforming that city. The three new casinos employ 
more than 7,500 people in the city and contribute hundreds of 
millions of dollars each year as tax revenue to the city and 
the State. The two proposed facilities will compete with the 
Detroit casinos for some of the exact same customers but as 
sovereign tribal entities without the burden of State and local 
taxes.
    In a misguided attempt to promote tribal sovereignty, the 
Committee on Natural Resources approved the Dingell and Stupak 
bills last month with little attention to the potential 
ramifications for other parts of our country. If these bills 
become law, any one of the more than 500 recognized Native 
American tribes can argue that they have a right to sue private 
landowners in an attempt to bargain for gaming somewhere else. 
This debate raises serious questions about issues under the 
jurisdiction of the Judiciary Committee, and that's why I'm 
glad we have an opportunity to testify in front of you today.
    This is not a simple tribal lands claim, as the proponents 
would like Members of Congress to believe. In short, Congress 
is being asked to pass special interest legislation benefiting 
two tribes, each of which already has gaming based on a suspect 
land claim that has already been thrown out of State and 
Federal court so they can open casinos hundreds, hundreds of 
miles from their ancestral land in direct competition with 
existing facilities that have helped revitalize a major 
American city.
    I commend you for taking a closer look at these issues; and 
I thank you very much, Mr. Chairman, for again allowing me to 
testify in front of your august Committee.
    Mr. Conyers. Thanks. You're amazingly brief this morning, 
Shelly Berkley.
    Ms. Berkley. I'm learning from past mistakes.
    Mr. Conyers. We are grateful to both of you for joining us, 
and I know you will be following our activities, and we may be 
coming back to you for consultation. Thanks so much for 
starting us off.
    We now call panel two. We have the distinguished Assistant 
Secretary, Bureau of Indian Affairs, U.S. Department of the 
Interior, Mr. Carl Artman; and then we have Chief Fred Cantu, 
Saginaw Chippewa Tribe of Michigan;and then we have Alicia 
Walker, the Sault Ste. Marie Chippewa Tribe; and Attorney 
Kathryn Tierney, the Bay Mills Indian Community.
    Cynthia Abrams of the National Coalition Against Legalized 
Gambling is unable to be with us, but we will accept into the 
record her written statement.\1\
---------------------------------------------------------------------------
    \1\ The statement referred to was not received by the Committee at 
the time this hearing was printed.
---------------------------------------------------------------------------
    I also note that our good friend and colleague, Hank 
Johnson of Atlanta, GA, has joined the hearings, thank you.
    The Chair recognizes the Ranking Member.
    Mr. Smith. Thank you, Mr. Chairman.
    As you just mentioned, Dr. Guy Clark, Chairman of the 
National Coalition Against Global Expansion, was scheduled to 
testify, but it turned out he is unable to do so, and so I 
would like to ask unanimous consent that his statement or 
testimony be made a part of the record.
    Mr. Conyers. Without objection, so ordered.
    [The prepared statement of Dr. Clark follows:]

Prepared Statement of Dr. Guy Clark, Chairman of the National Coalition 
                       Against Gambling Expansion

    As Chairman of the National Coalition Against Gambling Expansion, I 
appreciate the invitation to submit testimony regarding the issue of 
gambling expansion and the proposed legislation presently before this 
Committee.
    We strongly oppose this legislation because we believe these land 
claims should go through the Bureau of Indian Affairs. There should be 
no short cuts by attempting to win the favor of Congress.
    But more importantly, my remaining comments will extend beyond the 
specific questions of land claims before you this morning. Because the 
driving force behind these land claims is the desire for more gambling 
expansion.
    Many of you will agree that nearly all of the debate around 
gambling expansion in this country, whether in Michigan or anywhere 
else, consistently focuses on questions about ``jobs'' and ``revenue.''
    But what is remarkable about all of this frenzied discussion about 
jobs and revenue is that virtually no one ever stops for a minute and 
examines the product itself.
    Because this is a debate not about just any kind of gambling. It's 
not about Friday night poker games with the guys at work or buying a 
square in the Super Bowl office pool. This fight is about exploitative 
gambling--combating those who prey on human weakness for profit.
    America is on an exploitative gambling binge. What started forty-
five years ago with a lottery ticket has evolved into addiction 
delivery systems. There are now more than a dozen pathological gambling 
states and many others heading there fast.
    Today, the purest form of exploitative gambling is machine gambling 
with close to 800,000 slot machines and video poker games in operation 
in this country--that's one machine for every 395 Americans. And, it's 
these machines that generate most of the profits for the casino trade.
    What makes these electronic gambling machines exploitative? 
According to Dr. Natasha Schull at MIT, when you look at what these 
algorithms inside the machines are doing, it's a high tech version of 
``weighting the deck'' or ``loading the dice.'' Using loaded dice in 
gambling is cheating and is illegal.
    The goal of the technology behind these electronic loaded dice is 
no secret: how to get people to play longer, faster and more 
intensively. Every feature of the machine--the mathematical structure, 
visual graphics, sound dynamics, seating and screen ergonomics--is 
geared, in the language of the casino trade, to get gamblers to ``play 
to extinction''--which means until their money is gone. What the user 
is seeing is not an accurate representation of what's happening inside 
the machine.
    In my own state of New Mexico, Konami, one of the largest slot 
machine manufacturers, recently admitted to using subliminal technology 
in its machines by deceptively flashing jackpot symbols at players. I 
know you are well aware that many social scientists have done extensive 
research on subliminal perception and its motivational power.
    A modern slot machine doesn't have a handle to pull or use reels--
they use buttons and video screens. Instead of coins, they take player 
consumer cards. And instead of a few games per minute, hundreds can be 
played.
    Instead of actual reels, they have virtual reels that rely on 
complicated algorithms and virtual reel mapping, concepts that few 
people in the casino trade itself understand--much less policy makers 
and citizens considering these machines in their own communities.
    But despite the exploitative nature of these machines, there are 
still many people who say aren't people playing these machines 
``voluntarily?''
    All of you are familiar with consumer loyalty cards. Nearly all of 
the supermarkets and drug stores offer them. They use these cards to 
track consumers. The casino trade has taken this marketing research 
technology to a whole new level. Anyone comforted by the idea that 
playing the slots is voluntary should spend a day with those who work 
for the casino trade.
    People are targeted based on factors such as how fast they play a 
slot machine, information that can be collected through their 
``Player's Rewards card'' because many players use these cards directly 
in the machine. The faster someone plays, the more likely they are to 
play out of out of control. And the faster you play (i.e. more out of 
control you are), the more you are offered incentives like free slot 
play as well as free meals and hotel rooms.
    The casino trade's message is ``most people gamble without a 
problem'' declaring that ``only'' 5% of the general population has a 
problem. To put it in real numbers, that's one out of every twenty 
people. But the real question for everyone in this country to be asking 
is: ``What is the percentage of problem gambling behaviour, not among 
the general population, but of the gamblers who play electronic 
gambling machines once a month or more?'' Because having these machines 
locally is very different than having to travel to Las Vegas or drive 
several hours to play them. Instead of going 2-3 times a year to play 
the machines, now tens of millions of people are able to play the 
machines weekly.
    The facts show that more than fifty percent of regular electronic 
gambling machine players are experiencing harm. That's of those who 
play once or more per month. It's not telling it straight to say that 
``most people gamble without a problem'' because the vast majority of 
people don't play slots or haven't yet played long enough or frequent 
enough to experience the imminent harm. And, it's these problem 
gamblers who are the money makers. More than 80% of the revenues come 
from 20% of the players.
    Yes, there are a few other things in our society that are 
exploitative but our government aims to protect us from exploitative 
and predatory things. The major difference here is that many of our own 
state governments are a virtual partner in the exploitation. In every 
other instance, our government prosecutes such practices.
    The time has arrived for a national solution to America's gambling 
binge and it begins with a thorough and transparent investigation into 
the electronic gambling machines that are driving the casino trade's 
massive expansion.
    It's time this country put the chance back in gambling.

    Mr. Conyers. Carl Artman, the Assistant Secretary for 
Indian Affairs, is a member of the Oneida Tribe of Wisconsin, 
where he was chief counsel of the tribe before coming to 
Washington as Associate Solicitor for Indian Affairs in the 
Department; and he was confirmed in his current position last 
March. We welcome him to these proceedings.
    Your statements are all included in the record, and we 
invite your oral testimony.
    Good morning.

TESTIMONY OF CARL ARTMAN, ASSISTANT SECRETARY, BUREAU OF INDIAN 
            AFFAIRS, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Artman. Good morning, Mr. Chairman, Members of the 
Committee. Thank you.
    My name is Carl Artman, and I am the Assistant Secretary 
for Indian Affairs of the Department of the Interior. I am 
pleased to be here today to testify on H.R. 2176, a bill to 
provide for and approve this settlement of certain land claims 
for the Bay Mills Indian Community, and on H.R. 4115, a bill to 
provide for and approve certain land claims for the Sault Ste. 
Marie Tribe of Chippewa Indians.
    Through the legislation, Congress would approve and ratify 
agreements executed in 2002 between the State of Michigan and 
the Bay Mills and Sault Ste. Marie Tribes. Alternate lands 
would be provided to each tribe in consideration for 
extinguishing the tribe's claim to the Charlotte Beach, 
Michigan, lands.
    The Department does not support these bills for several 
reasons.
    The mandatory Nature of the Land Acquisition Provisions 
would require that the alternative lands be taken into trust 
even if NEPA liabilities exist on these lands. We recommend 
that any acquisition in trust be conditioned upon the land's 
meeting applicable environmental standards.
    The mandatory nature of the land acquisition would also 
preclude consultation with affected tribal, State and local 
governments that takes place under our regulations.
    In addition, section 2710(d) of the Indian Gaming 
Regulatory Act requires a tribe and State to enter into a 
compact approved by the Secretary and that notice of such 
approval be published in the Federal Register prior to Class 
III gaming occurring.
    The settlement agreements include many provisions commonly 
found in a tribal State compact under the Indian Gaming 
Regulatory Act, such as:
    The Governor's concurrence in the trust acquisition of the 
alternative lands for gaming purposes.
    Tribal payments to the State of Michigan in an amount equal 
to 8 percent of the net win derived from all Class III 
electronic games of chance in consideration for limited 
geographical exclusivity, and payments in the aggregate amount 
equal to 2 percent of the net win to the local units of State 
governments.
    Limitations of the tribe's Class III gaming operations in 
Michigan.
    A statement that section 9 of the compact is not implicated 
by provision of the alternative land to the tribe and the 
Governor's waiver of this provision to the extent it is 
determined to be implicated.
    However, these bills appear to circumvent the tribal State 
compact approval process by bypassing the approval of the 
Michigan State legislature. The Department respects tribal and 
State rights and supports the tribal-State compact negotiation 
and approval process. We believe that these provisions would be 
best in a compact.
    Finally, we're concerned with the lack of consultation with 
other Michigan tribes that may be impacted by the terms of 
these settlements, since the legislation would waive section 9 
of the Michigan compacts to the extent that it is implicated by 
the settlements.
    This concludes my remarks; Mr. Chairman; and I would be 
happy to answer any questions that the Committee has. Thank 
you.
    Mr. Conyers. Thank you, sir. We welcome your appearance 
here.
    [The prepared statement of Mr. Artman follows:]

                   Prepared Statement of Carl Artman

    Good morning, Mr. Chairman and Members of the Committee. My name is 
Carl Artman and I am the Assistant Secretary--Indian Affairs, at the 
Department of the Interior. I am pleased to be here today to testify on 
H.R. 2176, a bill to provide for and approve the settlement of certain 
land claims of the Bay Mills Indian Community, and on H.R. 4115, a bill 
to provide for and approve certain land claims of the Sault Ste. Marie 
Tribe of Chippewa Indians. Because of the potential for liability to 
the United States, and because the settlement agreements go beyond 
those required for the settlement of a land claim and circumvent an 
established process, the Department cannot support these bills.

                               BACKGROUND

    H.R. 2176 would approve and ratify an agreement executed on August 
23, 2002, between the Governor of the State of Michigan and the Bay 
Mills Indian Community. H.R. 4115 would approve and ratify an agreement 
executed on December 30, 2002, between the Governor of the State of 
Michigan and the Sault Ste. Marie Tribe. The settlement agreements 
provide the basis for Congress to extinguish the two tribes' claims to 
the Charlotte Beach lands. In consideration for the extinguishments of 
the tribes' claims, Section 2 of H.R. 2176 would require the Secretary 
to take into trust for the Bay Mills Indian Community alternative land 
located in Port Huron, Michigan. Section 1(b) of H.R. 4115 would 
require the Secretary to take into trust for the Sault Ste. Marie Tribe 
two parcels of land, one located in Oswego County, subject to the 
approval of the Village of Vanderbilt and the Little Traverse Bay Bands 
of Odawa Indians, and the other one located in the City of Romulus, 
Michigan, subject to the approval of the City.

                         PROBLEMATIC PROVISIONS

    Both bills would establish a 30 day requirement for the Secretary 
to take land into trust for the Tribe once the Secretary receives a 
title insurance policy for the alternative land that indicates it is 
not subject to any mortgage, lien, deed of trust, option to purchase, 
or other security interest. The mandatory nature of the land 
acquisition provisions would require that alternative lands be taken 
into trust even if the Department determines that potential liabilities 
exist on these lands. The legislation precludes the Department from 
evaluating the subject property to determine whether hazardous 
materials are present. The Department asks that Congress consider the 
cost to and potential liability of the United States Government with 
respect to legislative transfers of land into trust, both in this 
particular instance and all future mandatory trust transactions. We 
recommend any acquisition in trust be conditioned upon the lands 
meeting applicable environmental standards. The mandatory nature of the 
land acquisition would also preclude consultation with affected tribal, 
State, and local governments that takes place under our regulations.
    In addition, section 2710(d) of the IGRA requires that a tribe and 
State enter into a compact approved by the Secretary and that notice of 
such approval be published in the Federal Register before Class III 
gaming may occur.
    The settlement agreements include many provisions commonly found in 
a tribal-state compact under the Indian Gaming Regulatory Act (IGRA):

        (1)  the Governor's concurrence in the trust acquisition of the 
        alternative lands for gaming purposes;

        (2)  Tribal payments to the State of Michigan in an amount 
        equal to 8 percent of the net win derived from all Class III 
        electronic games of chance in consideration for limited 
        geographical exclusivity, and payments in the aggregate amount 
        equal to 2 percent of the net win from all Class III electronic 
        games of chance to local units of state governments;

        (3)  limitation of the Tribes' Class III gaming operations in 
        Michigan;

        (4)  the Governor's forbearance from exercising the State's 
        unilateral right to renegotiate the Compact pursuant to Section 
        12(c) of the Compact; and

        (5)  a statement that Section 9 of the compact is not 
        implicated by provision of the alternative land to the Tribe, 
        and the Governor's waiver of this provision to the extent it is 
        determined to be implicated.

    However, these bills appear to circumvent the tribal-state compact 
approval process by bypassing the approval of the Michigan State 
legislature. The Department respects tribal and state rights and 
supports the tribal-state compact negotiation and approval process. 
Therefore, we believe that these provisions would best appear in a 
compact.
    Finally, we are concerned with the lack of consultation with other 
Michigan tribes that may be impacted by the terms of these settlements 
since the legislation would waive Section 9 of the Michigan compacts to 
the extent it is implicated by the settlements.
    This concludes my remarks. I will be happy to answer any questions 
the Committee may have. Thank you.

    Mr. Conyers. The Chair notes the presence of Steve Chabot 
of Ohio, who is the Ranking Member currently, and also Jim 
Jordan of Ohio. What is this, an Ohio pile-on here, everybody 
from Ohio? Welcome to the hearing, gentlemen.
    We now turn to Chief Fred Cantu, the Saginaw Chippewa Tribe 
of Michigan. He has been that chief, having been unanimously 
elected to it in December of 2005; and then he was reelected 
last December. He has been appointed to a vacancy on the tribal 
council in late 2004, and before that had been the chief of the 
tribal fire department.
    Chief Cantu, welcome to the Committee. I don't know if 
you've testified in Congress before, but we've read your 
prepared statement, and now we're happy to hear your views 
summarizing your position.

                TESTIMONY OF CHIEF FRED CANTU, 
               SAGINAW CHIPPEWA TRIBE OF MICHIGAN

    Chief Cantu. Thank you, Mr. Chairman. This is probably my 
third time here in Congress, but thank you.
    My name is Fred Cantu. I'm the Chief of the Saginaw 
Chippewa Indian Tribe. I want to thank the Committee for 
allowing our tribe to testify today.
    Mr. Chairman, let me start by saying these bills are very 
controversial, not just here on Capitol Hill but also in 
Michigan and across Indian country. This is because these bills 
push the envelope past the limits of Indian policy.
    I've submitted two items to the Committee which raise 
serious questions about these two bills.
    First, I have submitted correspondences of the Department 
of Interior discussing and rejecting the request to prosecute 
these claims because of the view--they view them as unwinable.
    I also submitted testimony--testimony submitted by the 
Sault Ste. Marie Tribe in 2002 opposing the Bay Mills claim and 
attacking its validity.
    It is important to note that these land claims have never 
been independently verified by anyone. In fact, the Bay Mills 
Indian Community claim was rejected by the State and Federal 
courts; and the letters I have submitted show the U.S. 
Department of Interior believes the claims fail on its merits 
and cannot be won. But there are many questions that need to be 
examined.
    According to the former Sault Tribe chairman, this whole 
land claim was a scam from the start. According to detailed 
testimony the Sault Tribe gave in 2002 and which I've submitted 
with my written testimony, the Charlotte Beach claim was 
conceived by a Detroit area casino who developed it 
specifically as a vehicle to obtain a casino, not to settle a 
lands claim.
    We would ask that this Committee to investigate the 
detailed charges made by the Sault Tribe in their testimony 
before the Senate Committee on Indian Affairs in 2002.
    We also believe these bills undermine the Michigan gaming 
compact, which specifically required that no tribe conduct off-
reservation gaming without a revenue agreement from the other 
tribes in Michigan. This is a blatant attempt by these two 
tribes to evade their obligation under the compact which was 
specifically reviewed and approved by the Michigan legislature.
    Furthermore, this legislation would have Congress ratify a 
tribal State compact for the first time in history, which 
undermines the intent of IGRA and circumvents the authority of 
the Michigan legislature.
    Our tribe is deeply concerned that these proposed casinos 
are to be located in the ancestral lands of the Saginaw 
Chippewa Indian Tribe. Neither the Bay Mills Tribe nor the 
Sault Tribe has any ancestral connection to these lands, and 
the Indians Claims Commission has ruled on this on two separate 
occasion.
    During the February 6, 2008, hearing in the House Resource 
Committee, one Member of Congress remarked that these bills 
were solely about settling the lands claim and nothing about--
to do with gaming. If that is the true goal, we believe the 
validity of this claim should be proven.
    To that end, we respectfully recommend that this Committee 
remove the gaming provision from this legislation and have the 
appropriate Federal agencies determine whether these lands 
claims are legitimate. If they find that these claims are 
legitimate, we would ask that they make a determination as to 
the value of the claim and an appropriate compensation for 
those claims. This would ensure that these land claims have 
merit and would ensure the tribe are properly compensated if 
these claims exist.
    While these bills may be good for two tribes and their 
nonIndian developers, we believe it is bad policy for Indian 
country and urge the Committee to reject these bills.
    Again, thank you for the opportunity to testify.
    Mr. Conyers. Thanks, Chief Cantu. We appreciate you being 
here one more time in the Congress.
    [The prepared statement of Mr. Cantu follows:]

                 Prepared Statement of Chief Fred Cantu

    My name is Fred Cantu and I am the Chief of the Saginaw Chippewa 
Indian Tribe. I want to thank the committee for allowing our Tribe to 
testify today.
    Mr. Chairman, let me start by saying these bills are very 
controversial--not just here on Capital Hill--but all across Indian 
Country. Tribes across the country are waiting to see if Congress will 
actually allow two Tribes to get casinos on lands 350 miles from their 
reservations to settle a land claim that has never been validated by a 
single court or the federal government. In fact, the Bay Mills Indian 
Community's claim was rejected by both state and federal courts, and 
has also been rejected by the United States Department of Interior.
    These land claims have never been independently verified by 
anyone--and these bills raise more questions than they provide 
solutions. These claims would lower the standard for the establishment 
of a legitimate land claim and would invite other tribes to seek land 
claim settlements for casinos without any independent verification of 
the validity of such claims. In fact it could be argued that the long 
history and ill treatment received by tribes across the country could 
support similar claims that are at least as compelling as those raised 
in these bills.
    If Congress passes these bills, you will have Tribes across the 
country lined-up before Congress seeking casinos for land claims that 
have never been proven valid. We have not found one instance in which 
Congress has granted a Tribe a casino and a gaming compact for settling 
a land claim, much less the type of an unsubstantiated and questionable 
claims presented here.
    These bills would establish a dangerous precedent and must be 
rejected by Congress for the sake of Indian gaming. What separates 
Indian gaming from private gaming is that Tribes are restricted to 
gaming on Indian Lands--not wherever they feel it is most profitable. 
If Congress begins authorizing Tribes to establish reservations 350 
miles from their existing reservations and designates those lands for 
gaming, it will completely undermine the whole premise of Indian 
gaming. And that is why Mr. Chairman, no other Tribe supports these 
bills.
    Our Tribe is also deeply concerned that these proposed casinos are 
to be located in the ancestral lands of the Saginaw Chippewa Tribe. 
Neither the Bay Mills Tribe nor the Sault Tribe has any ancestral 
connection or claim to these lands and the Indian Claims Commission has 
ruled on this on two separate occasions.
    We also believe these bills undermine the Michigan Gaming Compact 
which specifically requires that no Tribe conduct off-reservation 
gaming without a revenue agreement from the other Tribes in Michigan. 
Very simply--this is a blatant attempt by these two Tribes to evade 
their obligations under the Compact, which was specifically reviewed 
and approved by the Michigan State Legislature. Furthermore, this 
legislation would have Congress ratify a Tribal/State compact for the 
first time in history--which undermines the intent of IGRA and 
circumvents the authority of the Michigan Legislature.
    During the February 6, 2008, hearing in the House Natural Resources 
Committee, one Member of Congress remarked that these bills were solely 
about settling a land claim and had nothing to do with gaming. If that 
is the true goal, we believe the validity of this claim should be 
proven. To that end, we respectfully recommend that this Committee 
remove the gaming provisions from this legislation and have the 
appropriate federal agencies, determine whether these land claims are 
legitimate. If they find these claims are legitimate we would ask that 
they make a determination as to the value of the claim and the 
appropriate compensation for those claims. This would ensure that these 
land claims have merit and would ensure the Tribes are properly 
compensated if these claims exist.
    But there are many questions that need to be examined. According to 
the former Sault Tribe Chairman, this whole land claim was a scam from 
the start. According to the Sault Tribe, the Charlotte Beach claim was 
conceived by a Detroit area attorney who developed it specifically as a 
vehicle to obtain a casino--not to settle a land claim. We would ask 
this committee to investigate the detailed charges made by the Sault 
Tribe in their testimony before the Senate Committee on Indian Affairs 
in 2002.
    Mr. Chairman, IGRA was meant to promote economic development on 
Indian reservations--not to reward Tribes who scheme with non-Indian 
developers.
    While these bills may be good for two Tribes and their non-Indian 
developers, it is simply bad policy for Indian Country. We would hope 
the Committee does the right thing and rejects these bills.
    Thank you.

    Mr. Conyers. I'm now turning to a partner of the law firm 
Greene, Meyer & McElroy. An attorney, Alicia Walker, a law 
graduate from Georgetown Law School, is our witness today. 
She's been representing Indian tribes for quite a while. She's 
here today on behalf of the Sault Tribe.
    Welcome to the Committee hearing.

            TESTIMONY OF ALICE E. WALKER, ESQUIRE, 
                SAULT STE. MARIE CHIPPEWA TRIBE

    Ms. Walker. Thank you, Mr. Chairman.
    Unlike Chief Cantu, this is my first time testifying before 
Congress, so I didn't get the button quite right.
    Thank you for the opportunity to present testimony today.
    As you noted, my name is Alice Walker. I'm from Boulder, 
Colorado, a partner in the law firm of Greene, Meyer & McElroy. 
We have represented the Sault Tribe for more than 20 years on a 
variety of issues, and I am here today representing the Sault 
Tribe on the settlement of the Charlotte Beach land claim.
    It is my pleasure to appear before the Committee today to 
urge its support for H.R. 2176 and H.R. 4115, both of which 
would settle the long-standing claims of the Bay Mills Indian 
Community and the Sault Tribe with respect to lands in 
Charlotte Beach. The bills arise from two settlement 
agreements. They were entered into in August and December of 
2002, one between Bay Mills and the other between the Sault 
Tribe. Both of the 2002 settlement agreements contain identical 
language, except for identification of potential alternative 
lands.
    The record before the Committee on Natural Resources 
describes in detail the nature of those settlement agreements 
and the propriety of congressional approval of those settlement 
agreements so that final resolution of the Charlotte Beach land 
claim may finally come to fruition.
    The issue before the Committee today relates to the need 
for the judicial review provision in each of the bills, which 
states as follows:
    This is the enforcement provision: The settlement of land 
claim shall be enforceable by either tribe or the Governor 
according to its terms. Exclusive jurisdiction over any 
enforcement action is vested in the United States District 
Court for the Western District of Michigan. That provision is 
section 1(e)(3) of H.R. 4115 and section 3(c) of H.R. 2176. 
That mirrors section 14 of the 2002 settlement agreements which 
provide that to the extent there is a dispute or controversy 
involving the terms of this settlement, the parties agree that 
all actions or proceedings will be tried and litigated only in 
the Federal District Court for the Western District of 
Michigan.
    The judicial review provisions are consistent with the 2002 
settlement agreement and indeed may be viewed as a belt-and-
suspenders approach to ensuring that no court other than the 
United States District Court for the Western District of 
Michigan will have jurisdiction over disputes arising under the 
2002 settlement agreement. While the judicial review provisions 
of the bills are consistent with the 2002 settlement agreement, 
they are not necessary in order to accomplish the substantive 
purposes of the bills, which is to finally resolve the long-
standing Charlotte Beach land claims to the satisfaction of 
both tribes as well as the Charlotte Beach landowners.
    Accordingly, the Sault Tribe does not object to retaining 
the judiciary review provisions in the bill, since they are 
consistent with the 2002 settlement agreements, or eliminating 
those provisions, since they are arguably duplicative of the 
underlying agreements.
    On behalf of the Sault Tribe, I look forward to the 
Committee's consideration of this issue and its referral of 
H.R. 2176 and H.R. 4115 back to the House floor. Thank you for 
the opportunity to testify today.
    Mr. Conyers. Thank you so much. We are delighted to have 
you here for your first congressional experience----
    Ms. Walker. Thank you.
    Mr. Conyers.--before the Judiciary Committee. It will be a 
pleasant experience, I assure you.
    Ms. Walker. I sure hope so.
    [The prepared statement of Ms. Walker follows:]

              Prepared Statement of Alice E. Walker, Esq.

    Mr. Chairman and Members of the Committee, thank you for the 
opportunity to testify today on behalf of the Sault Ste. Marie Tribe of 
Chippewa Indians. My name is Alice E. Walker. I am a partner and 
shareholder in the law firm of Greene, Meyer & McElroy, P.C., located 
in Boulder, Colorado. Our firm has represented the Sault Tribe for more 
than twenty years on a variety of issues, and I am here today 
representing the Sault Tribe regarding the settlement of the Charlotte 
Beach land claims.
    It is my pleasure to appear before the Committee today to urge its 
support for H.R. 2176 and H.R. 4115, both of which would settle the 
long-standing land claims of the Bay Mills Indian Community and the 
Sault Ste. Marie Tribe with respect to lands in Charlotte Beach, 
Michigan. The bills arise from two Settlement Agreements, entered into 
in December of 2002, one between the Sault Ste. Marie Tribe and the 
State of Michigan, and the other between the Bay Mills Indian Community 
and the State of Michigan. Both of the 2002 Settlement Agreements 
contain identical language, except for the identification of 
alternative lands. The record before the Committee on Natural Resources 
describes in detail the nature of those settlement agreements and the 
propriety of congressional approval of those settlement agreements so 
that final resolution of the Charlotte Beach land claims may finally 
come to fruition.
    The issue before the Committee today relates to the need for the 
judicial review provision in each of the bills, which states as 
follows: ``(c) Enforcement--The Settlement of Land Claim shall be 
enforceable by either the tribe or the Governor according to its terms. 
Exclusive jurisdiction over any enforcement action is vested in the 
United States District Court for the Western District of Michigan.'' 
That provision is Section 1(e)(3) of H.R. 4115, and Section 3(c) of 
H.R. 2176. That provision mirrors section 14 of the 2002 Settlement 
Agreements, which provide that ([t]o the extent there is a dispute or 
controversy involving the terms of this Settlement, the parties agree 
that all actions or proceedings will be tried and litigated only in the 
Federal District Court for the Western District of Michigan.
    The H.R. 4115 and H.R. 2176 judicial review provisions are 
consistent with the 2002 Settlement Agreement, and indeed, may be 
viewed as a belt-and-suspenders approach to ensuring that no court 
other than the United States District Court for the Western District of 
Michigan will have jurisdiction over disputes arising under the 2002 
Settlement Agreements. While the judicial review provisions of the 
bills are consistent with the underlying 2002 Settlement Agreements, 
they are not necessary in order to accomplish the substantive purposes 
of the bills, which is to finally resolve the long-standing Charlotte 
Beach land claims to the satisfaction of both Tribes as well as the 
Charlotte Beach landowners. Accordingly, the Sault Tribe does not 
object to either retaining the judicial review provisions, since they 
are consistent with the 2002 Settlement Agreements, or eliminating 
those provisions, since they are arguably duplicative of the underlying 
agreements. On behalf of the Sault Tribe, I look forward to the 
Committee(s consideration of this issue and its referral of H.R. 2176 
and H.R. 4115 back to the House floor.
    Thank you for the opportunity to testify today.

    Mr. Conyers. Attorney Tierney, you are welcome here as the 
counsel for the Bay Mills Indian Community. You've represented 
them from the beginning of your legal career, and I am looking 
forward to getting the benefit of your experience as it applies 
to the questions that are now before the Judiciary Committee of 
the House of Representatives.
    Welcome to our hearing this morning.

        TESTIMONY OF KATHRYN TIERNEY, TRIBAL ATTORNEY, 
                   BAY MILLS INDIAN COMMUNITY

    Ms. Tierney. Thank you, Mr. Chairman. It is a pleasure to 
be here.
    I have to say, this weather almost prevented me from making 
it, and so I'm glad to be sitting at this table.
    As you've indicated, I am here as in-house counsel for the 
Bay Mills Indian Community and representing them and also its 
President of the Executive Council, Mr. Jeffrey Parker, who was 
invited to testify here today. In his absence, I am sitting in 
on his behalf.
    As you know, Mr. Parkertestified before the House Natural 
Resources Committee in February of this year about these two 
bills; and I have provided as an attachment to my one-page 
statement the full text of his submission to that Committee, 
hoping that way to provide sufficient information to you and 
not to duplicate matters by repeating myself and therefore 
perhaps preventing more expeditious review of this material.
    I think it is important for all of us to recognize that the 
reason why we have sought these bills is that it requires an 
act of Congress to settle land claims. That is why the Bay 
Mills Indian Community has sought legislation to resolve this 
matter, and that is why we are hopefully and respectfully 
asking for your support in having that done.
    I know that the materials that Mr. Parker has presented 
have been in circulation, so I think it best and most 
appropriate for me to offer my assistance, if I can, in 
answering any questions that Members of the Committee might 
have and thank you for the opportunity to address the 
Committee.
    Mr. Conyers. Thank you so very much.
    [The prepared statement of Ms. Tierney follows:]
                Prepared Statement of Kathryn L. Tierney
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               ATTACHMENT

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Conyers. To our female attorneys, Ms. Walker and Ms. 
Tierney, here's what I'm thinking about. The Charlotte Beach 
lands have been in private hands since the late 19th century. 
When did your tribes interest in pursuing those lands first 
manifest itself?
    Then think about this with me. Since the land claims are 
against the State of Michigan, what do you imagine the Federal 
Government has to do with this?
    And, finally, why do the two land settlement agreements 
break with the 1993 compact that both your tribes entered into 
with the State of Michigan, particularly with the issue of 
sharing revenues?
    And then, Chief Cantu, how easy would it be for the Saginaw 
Tribe to assert a claim like the two asserted here? And if you 
did, what do you think the geographical limits on where you 
could build a casino would play into that?
    I'll let the ladies start first, and then the Chief will 
follow up.
    Ms. Walker. And, Mr. Chairman, I will defer first to Ms. 
Tierney, since she in Bay Mills was the first to pursue the 
land claims, if we start with your first question.
    Ms. Tierney. Thank you.
    The Bay Mills Indian Community has always been federally 
recognized. It has had that name since it was organized under 
the Indian Reorganization Act in 1936. But, prior to that, it 
was considered the Indian people living on or near Sault St. 
Marie. It is in that context that this claim first arose in 
1857.
    The efforts to resolve it go back that far; and if you look 
at Mr. Parker's testimony before the House Resources Committee, 
he gives you a time line starting at the bottom of page 3 and 
through page 4.
    Let me quickly repeat that in a summary fashion. The bank 
sought to protect land that they wished to live on permanently 
by placing it in trust with a Governor of the State of Michigan 
named Kingsley S. Bingham and his successor in office, at the 
recommendation of the superintendent of the Michigan agency, 
thinking that that would be the best way to ensure that land 
speculation, et cetera, could not result in the loss of the 
land to the Indian owners.
    In the 1870's, for some reason that no one has ever been 
able to determine, the land was placed on the tax roll of 
Chippewa County, which is still the county in which these lands 
are located, and was sold for tax sales in 1874 and 1875. That 
immediately resulted in disputes and claims and requests to the 
United States to fix this matter, to obtain the land back; and 
that effort went into the following century.
    There is correspondence going back to 1916, 1920, 1925, 
1930's, all trying to obtain this land back. The correspondence 
at that time was with the United States, and those documents 
are referenced in materials that Mr. Parker submitted to the 
House Resources Committee and a copy of which has been provided 
to this Committee.
    All of that correspondence indicates that the United States 
does not have a role to play in obtaining the land back from 
the subsequent owners through the tax sales because the United 
States did not own it at the time. The trust was not with the 
United States. It was with the Governor of the State of 
Michigan.
    In the 1970's, there was an effort again to bring up this 
issue to the 2415 process, which this Committee, I am sure, is 
quite familiar with. It was a statute of limitations provision 
in which claims for trespass against lands held for Indian 
people had to be filed for money damages or forever be lost.
    There was an initial deadline of 1976, I believe it was, 
that was extended until the early 1980's. This claim again was 
identified pursuant to that process and subsequently rejected 
by the Secretary of Interior, stating that in order for it to 
be a 2415 claim, again title to the land it had to have been at 
least at one point when the trespass occurred in the United 
States. Because it was in trust with the Governor, it was not 
an appropriate claim under 28 USC 2415.
    Subsequently to that, Bay Mills sought its own way to 
resolve this matter by filing suit both in Federal court 
against all the landowners currently holding title in that 
area, as long as anyone else who had an interest in the 
property--now we're including banks, road commission, anyone 
who had an appreciable property interest.
    The litigation, as everyone has noted, resulted in a 
dismissal on procedural grounds due to the fact that the Sault 
Ste. Marie Tribe was identified as an indispensable party who 
could not be joined without its consent.
    The case was dismissed. The dismissal was upheld by the 
Sixth Circuit. The efforts to obtain relief from the State of 
Michigan resulted in a claim filed with its court of claims. 
That was rejected, saying the statute of limitations had run.
    It was only after those efforts were gone through without 
success and the fact that the property owners were still 
seeking to have relief from the clouds on their title that the 
effort was made by the Governor then of the State of Michigan, 
John Engler, to sit down with the Bay Mills Indian Community 
and reach an agreement, which was made in August of 2002.
    Mr. Conyers. Chief Cantu, I presume you're in complete 
agreement with these observations?
    Chief Cantu. Yes, I believe so.
    Mr. Conyers. What do you think about the question that I 
asked you?
    Chief Cantu. It's been a little bit since you asked that 
question, and I would ask if you could repeat that for me.
    Mr. Conyers. How difficult would it be for the Saginaw 
Tribe to assert a claim like the two that are being put forward 
by the counsels to your left?
    Chief Cantu. Well, I think that would lower the bar for any 
land claim that would be out there.
    The claims should be verified by a court. Without 
verification of such claims by an act, then, yes, the Saginaw 
Chippewa Tribe and many others could also establish a lands 
claim anywhere else.
    Mr. Conyers. What's your feeling about this conversation 
we're in, Mr. Artman?
    Mr. Artman. I think Ms. Tierney's recitation of the facts 
is accurate, and I just want to underline in there that in her 
recitation of the facts this was a settlement of land claims 
between the State and the tribe. As the tribe's trustee, we 
weren't involved in this latter end process. At the very 
beginning, we provided the money to purchase the initial lands 
which were lost through the tax sales, but through this we 
weren't involved in it. And, as indicated by Ms. Tierney, the 
2415--it was rejected under the 2415 claim as well by the 
Department back in the '80's.
    You asked about the distance of Chief Cantu and how this 
could--this settlement created additional settlements for other 
tribes. I don't know that this may set up----
    Mr. Sensenbrenner. Excuse me, Mr. Artman. Would you mind 
hitting the button? I don't think your mike is on.
    Mr. Artman. I'm sorry.
    This settlement of a land claim may or may not set up a 
precedent for additional land claims themselves. I think that a 
lot of that precedence would also have to be rooted in the 
history that's out there.
    One of our biggest concerns, though, with this is the 
precedent or the road map that this may create to circumvent 
the Indian Gaming Regulatory Act itself, again, by putting in 
Class III provisions or provisions that you might normally find 
in a Class III compact that goes through the approval of the 
tribal council and the State itself. And in the State of 
Michigan I believe that the Attorney General's opinion is that 
it has to go through the Governor's office as well as the State 
legislature.
    You are circumventing the State process, it seems; and then 
you are also circumventing the Federal process as laid out in 
the Indian Gaming Regulatory Act by getting the approval of the 
Secretary of the Interior.
    Mr. Conyers. Thank you very much.
    Steve Chabot.
    Mr. Chabot. Thank you very much, Mr. Chairman.
    I'm filling in for the Ranking Member, Lamar Smith, now; 
and he gave an opening statement. So I'll refer to that opening 
statement in which Lamar Smith indicated that both Chairman 
Conyers and he opposed these two bills because they would, 
well, among other things, transfer land from Michigan to the 
two tribes in order to build--in which they could build casinos 
or other gaming establishments.
    And one of his concerns was that building more casinos 
could lead to more people becoming compulsive gamblers and also 
the linkage to higher rates of criminal activity. I share those 
concerns as well, as I know that many other Members of Congress 
do; and I would invite any of the members of the panel to 
briefly comment on that. Because I have one more question in 
the 5 minutes that I have allotted to me, so we can either go 
down the line or anybody can jump right in.
    Ms. Walker, I see you going for the buzzer there, so----
    I had a short answer, and I think that the question really 
isn't whether we need another casino in Michigan, and whether 
they were going to lead to the bad elements that follow from 
additional casino gambling that the Committee has noted today. 
Really, the question is about whether Congress will participate 
in the settlement of these very longstanding land claims that, 
according to testimony, and certainly my review of the record 
and my participation in this process, are quite valid. They are 
longstanding.
    Ms. Tierney has recited very carefully the history of Bay 
Mills' efforts to try to get these resolved. I think that 
focusing on the addition of casinos really takes away from what 
these bills are really trying to accomplish, which is really 
settling these long-term land claims once and for all to the 
satisfaction of the tribes, the State, and the Charlotte Beach 
landowners.
    Mr. Chabot. Anybody else want to comment, or should I go on 
to my second question?
    Chief Cantu, did you want to comment?
    Chief Cantu. Thank you. If this was a legitimate land 
claim, then why was testimony given by the Sault Ste. Marie 
Tribe and the Bay Mills Tribe about the importance of 
developing the gaming, how it would create jobs. Our whole 
position is that this is a valid land claim. Let's take all of 
those provisions out of there and let's get it settled.
    Mr. Chabot. Let me go on with my second question. Again, 
this is from Mr. Smith's opening statement. He indicates that 
the Pro-gaming National Congress of American Indians itself 
stated, ``Even after the advent of gaming Indian reservations 
continue to have a 31 percent poverty rate and 46 percent 
unemployment rate.'' They also note that Indian health and 
education statistics are among the worst in the country.
    So, again, getting back to the point, and I know that you 
are talking specifically about land claims, but the 
implications to many of us up here is the fact that this could 
result in additional casinos or gaming establishments going up, 
and many of us consider that to be not necessarily in the best 
interest of the public because of the associated ills that go 
often times with gaming.
    But, again, if one is arguing that there are good things 
that come from this, how do you respond to those continuing 
high levels of poverty and a 46 percent unemployment rate, 
despite the fact that gaming is available on a number of 
reservations? So if anybody wants to touch on that.
    Mr. Artman. I see you going first.
    Mr. Artman. Thank you very much. I think the statistics 
often times don't show the whole picture. There are some very 
successful tribal casinos out there, there are some 
unsuccessful tribal casinos out there. But the fact remains 
success is largely driven by location.
    Many of the reservations, in fact, a great majority of the 
reservations across the United States, are located in the areas 
that aren't accessible to a market for gaming. So the ills that 
have affected reservations for decades still exist today, even 
with gaming.
    Gaming is not the cure-all. Tribes across the Nation, with 
or without gaming, are looking for that economic development, 
whatever that may be. So you still do have large swatches of 
unemployment throughout Indian Country, crime is larger than 
the national average, and education statistics for the students 
are lower than the national average. These are all things that 
we tackle on an everyday basis at the Department of Interior, 
and gaming is just a portion of that.
    The issues and ills and successes in Indian Country are 
difficult to categorize under a general category of all of 
Indian Country. You have to look at it on a regional, or even a 
local basis.
    Mr. Chabot. Mr. Chairman, I note my time has expired, so I 
yield back the balance of my time.
    Mr. Conyers. The Chair notes the presence of Darrell Issa, 
the gentleman from California. But I will recognize Howard 
Coble now.
    Mr. Coble. Thank you, Mr. Chairman. I appreciate that. Good 
to have you all with us.
    Mr. Artman, does the Indian Gaming Regulation Act require a 
tribe that receives a transfer of land to enter into an 
agreement about the use of that land with the State where the 
land is located?
    Mr. Artman. There are two portions of that question, or two 
things we have to address in that question, Congressman. First 
of all, the land itself. The land itself comes, before you can 
game on it, the land has to be held in trust by the United 
States. The United States takes the land into trust under the 
Indian Reorganization Act, the regulations, the 151 regulations 
specifically a part of that.
    During that process, the State has the opportunity, as well 
as local communities have the opportunity to comment on taking 
that land into trust. Where the State plays an even larger 
role, looking at the additional gaming portion of that 
question, is during the Indian Gaming Regulatory Act Class III 
compacting process. In order to engage in Class III gaming on 
land that is in trust or on the reservation, the tribe and the 
State have to agree to a compact, and then that is submitted to 
the Department of the Interior.
    So the State certainly has a larger, very large role in the 
development on how that land will be used for gaming purposes 
during the IGRA process.
    Mr. Coble. Do these bills ensure that such an agreement 
will be made?
    Mr. Artman. These bills seem to circumvent the Indian 
Gaming Regulatory Act process by inserting at the congressional 
level here many of the provisions you might normally find in a 
Class III compact. These are things that are regulations, and I 
believe even the Indian Gaming Regulatory Act, Congress, in 
drafting that, would prefer to be negotiated between the tribal 
government and the State government.
    Mr. Coble. Thank you, sir.
    Chief, does the Michigan State Constitution require voter 
approval for additional gaming establishments?
    Chief Cantu. Yes, it does.
    Mr. Coble. Well, has the State held a referendum on the 
plan for these lands?
    Chief Cantu. I am not sure that they have.
    Mr. Coble. Ms. Walker, one side contends that the Michigan 
State Constitution requires voter approval for new gaming 
establishments, is my interpretation. It is
    furthermore my interpretation that you claim there is 
exemption to the referendum rule for the Indian gaming.
    Now I am going to ask you which of the two positions is 
accurate, and I think you are getting ready to tell me.
    Ms. Walker. I am getting ready to refer to the letter that 
John Wernet has provided, addressing this very issue as to 
whether the settlement agreements would constitute an amendment 
of the compact and thereby whether the amendment of the compact 
would require voter approval.
    There has been recent Supreme Court decision in the 
Taxpayers of Michigan Against Casinos v. Michigan in which the 
compacting process was upheld. The amendment to the compacting 
process was upheld without requiring a new legislative approval 
for that amendment.
    But getting back to the other underlying issue, whether 
these bills constitute an amendment, it is our view, obviously, 
that they do not, and that is what the Governor has said, that 
is what the testimony before the Natural Resources Committee 
has determined, that these are not amendments to the compact, 
and that in fact the compact allows these bills to go forward 
consistent with their provisions.
    Mr. Coble. I thank you.
    Ms. Tierney, Mr. Artman is here representing the Department 
of the Interior, who has expressed opposition to these 
transfers.
    Now what do you say, Ms. Tierney, when one would say that 
it is a perhaps unwise or untimely or dangerous precedent to 
allow the established department procedures to be circumvented? 
What do you say to that?
    Ms. Tierney. Actually, sir, I do not believe that this 
legislation controverts established procedures. There is 
significant and numerous precedents for this body, meaning the 
Congress of the United States, to direct the Secretary of the 
Interior to accept title in trust to land on behalf of a 
specific Indian tribe. So in that sense, there is no precedent 
being established. In fact, there is also legislation that has 
been passed in previous Congresses not only directing the land 
to be taken into trust, but specifically allowing gaming to 
occur. There are references to those particular provisions in 
Mr. Parker's testimony. I am not going to bore everyone by 
trying to find it while I sit here.
    So in that sense, I am not sure what Mr. Artman has in mind 
by stating that this is setting precedent or circumventing 
procedures in a way that has never occurred in the past, 
because it has.
    Mr. Coble. Mr. Chairman, I know you like us to conclude 
before that red light illuminates.
    Mr. Conyers. Take all day.
    Mr. Coble. You are a very generous Chairman. I yield back.
    Mr. Conyers. Hank Johnson, the gentleman from Georgia.
    Mr. Johnson. Thank you, Mr. Chairman. I would like to ask 
who owns the land in Port Huron and in Romulus that your two 
tribes would receive in these land deals.
    Ms. Tierney. The Bay Mills Indian community's legislation 
and agreements specifically identify particular parcels, both 
of which are currently in private hands, both of which are 
subject to understandings that the title to them will not 
transfer out of private hands unless or until this legislation 
is enacted.
    Mr. Johnson. So land is owned by some person who, or entity 
that is not identified currently. Would you wish to reveal 
that? I am sure it is public record.
    Ms. Tierney. I do not have the specific names. I can 
provide that.
    Mr. Johnson. Is it individuals?
    Ms. Tierney. The owners of record, they are on the title as 
recorded in the register of deeds office for St. Clair County. 
I just don't want to give the wrong information. I would like 
to check in order to provide it.
    Mr. Johnson. How was it that those lands were arrived at as 
the ones that would be subject to the Indian claim?
    Ms. Tierney. These were lands that----
    Mr. Johnson. I mean I am sure that these particular parcels 
that you have in mind are a part of a large--I mean it is part 
of the State of Michigan.
    Ms. Tierney. They are.
    Mr. Johnson. How is this particular part of the State 
selected for this particular action?
    Ms. Tierney. For the Bay Mills Indian community, and I can 
only speak for Bay Mills, and defer to counsel for the Sault 
Tribe on the other matters, Port Huron was identified by then 
Governor Engler as a location that he would like to see gaming 
be available. So we looked at that area closely and found that 
it would be one in which we were willing to enter into an 
agreement to accept land in return for the Charlotte Beach 
property.
    Ms. Walker. Thank you. The situation is similar for the 
Sault Tribe in that the Governor indicated areas that could use 
economic development, and looking to the casinos as a source 
for that purpose. The Sault Tribe has three options for the 
land acquisition; one is in Romulus. We have been talking about 
Romulus today, but there are really three options under the 
bill. One is Romulus, one is Flint, and the other is land in 
Oswego County.
    So there are options for purchasing those. They are in 
private ownership in this time. But they are areas that, as Ms. 
Tierney noted, would support economic development and that the 
tribe is examining for the propriety of substituting them for 
the Charlotte Beach land claims.
    Mr. Johnson. So these are lands in private hands in the 
State of Michigan; the United States has no particular claim to 
the property, if you will?
    Ms. Walker. Not at this time.
    Mr. Johnson. But now in this legislation you would be 
looking for the United States to ratify an agreement between 
the Governor and the tribes to settle a Federal claim?
    Ms. Tierney. There is a Federal law, sir, the Indian Trade 
and Intercourse Act, which was first enacted by the United 
States in the early 1800's, the one that we still refer to now 
was passed in 1834, which specifically prohibits Indian land 
from being disposed of without the consent of Congress. It is 
still the law of the country. That is why we are here. We need 
Congress' consent to relinquish our claim.
    Mr. Johnson. Relinquish to the Federal Government?
    Ms. Tierney. To the Charlotte Beach property, that is 
correct. That is the property we have been talking about 
earlier that I had indicated had been lost because of tax 
sales.
    Mr. Johnson. It is not owned by the Federal Government 
either, is it?
    Ms. Tierney. No.
    Mr. Johnson. Does the Federal Government assert some kind 
of interest in that property, Mr. Artman?
    Mr. Artman. No, we do not.
    Mr. Johnson. So the Federal Government would simply just 
ratify an agreement between the State and the private parties 
and that would then, according to this legislation, 
automatically entitle the property to a Class III gaming 
license. Is that what we are talking about here?
    Mr. Artman. Under this legislation, that is correct. This 
would mandate that the United States take into trust this land, 
and all claims would be relinquished, and according to 
legislation, gaming could occur on that land.
    Mr. Conyers. Would the gentleman from Georgia yield for a 
follow-up on his questions?
    Mr. Johnson. I will.
    Mr. Conyers. How did Governor Engler in his wisdom decide 
where this casino ought to be located?
    Ms. Tierney. That is not something I am privy to.
    Mr. Conyers. Well, I mean, Mr. Artman, do you have other 
instances in your experience where a Governor determines where 
a casino outside of the reservation itself is located is going 
to be?
    Mr. Artman. There has been precedent with--as mentioned 
earlier, there has been precedent with regard to taking land 
into trust, perhaps even through the congressional process, 
that has resulted in gaming. One such case was with the Seneca 
in New York, another was Wyandot in Oklahoma and Kansas.
    Mr. Conyers. They weren't hundreds of miles away from the 
reservation.
    Mr. Artman. Arguably, no, they weren't.
    Mr. Conyers. Arguably. I mean they either were or they 
weren't. I suggest to you that we are looking for some history 
where a Governor in his wisdom decides that hundreds of miles 
away from the Indian reservation let's start a casino, ladies 
and gentlemen. I guess the Indian reservations say who are we 
to object to the Governor's wisdom. And here we go.
    Now we are being asked, as Johnson has brought out, now the 
government is being asked to retroactively, the Congress, 
ratify all of this and say look, let's make it legal, let's get 
this over with, and let's forget the fact that there are 
several unusual, to me, unusual factors about this matter.
    Is that too disingenuous? Isn't that what we are doing here 
today? That is what is proposed to be done by the Congress. 
Right?
    Ms. Walker. Mr. Chairman, may I comment, please? With 
respect to other gaming facilities in which a Governor has 
agreed to a distance location, I think the good example is the 
Forest County Potawatomi facility in Milwaukee, which is over 
200 miles away from the reservation lands. This exists. This 
has happened. There are several situations in which this 
occurs. I think Seneca is another example. They have got a 
casino in Niagara, which is far away from the town of 
Salamanca.
    Mr. Conyers. This is a regular process.
    Ms. Walker. For approval of a land claim?
    Mr. Conyers. Look, this is either irregular or ordinary.
    Ms. Walker. I think it is regular.
    Mr. Conyers. In each of those cases I would just like to 
know, since the overwhelming majority of casinos are granted 
for the immediate benefit of the reservations and communities 
of the Indian tribes, but now it seems like somewhere along the 
line, historically, if you are right, people are saying well, 
and in those two instances I would want to know why did they 
pick hundreds of miles away from the casino.
    Mr. Artman.
    Mr. Artman. In the case just brought up, the Forest County 
Potawatomi, that, and along with two others, the Forest County 
Potawatomi was actually the longest of the two-part 
determination process. But that doesn't set a precedent for 
what is occurring here today. The Forest County Potawatomi, 
along with two others, we have only approved three two-part 
determinations, all went through the Indian Gaming Regulatory 
Act two-part determination. It went through the Secretary 
approval process, in which we reviewed it, analyzed it under 
certain conditions, and then the State approved it as well.
    Now certainly the State may have played a role in placing 
that particular gaming location in that area, but that was also 
done through the Federal law at the administrative level and 
not here at Congress. What we are concerned about is the 
precedent set here in Congress for circumventing that 
administrative process as set forth in IGRA.
    Mr. Conyers. What Congressman Johnson and I are trying to 
figure out, going back to the Michigan cases, why did they pick 
these two plots of land to do a casino? He put on a blindfold 
and went to the map and stuck a pin in and said aha, Sault or 
Port Huron; another blindfold, Romulus, Michigan. Is that how 
it happened?
    Ms. Tierney. I don't believe so.
    Mr. Conyers. I don't think so either.
    Ms. Tierney. I believe the best place to look perhaps is 
the testimony in support of this legislation that was done in 
2002 before the Senate Indian Affairs Committee in which a 
statement was presented in testimony given by Lance Boldrey, 
the Deputy Legal Counsel for Governor Engler.
    Mr. Conyers. But what did he say?
    Ms. Tierney. I will have to defer to the text itself. I 
believe that there was an explanation as to the process by 
which the Governor agreed to those locations.
    Mr. Conyers. Okay.
    Mr. Johnson, should I invite you for any conclusion before 
we turn to our colleague from California?
    Mr. Johnson. I think you have clarified sufficiently. I 
will yield back the remainder of my time.
    Mr. Conyers. Thank you.
    Darrell Issa.
    Mr. Issa. Thank you, Mr. Chairman. You have gone a long way 
toward setting the record straight. There is nobody on this 
Committee I think that represents more native American tribes 
and bands than I do. There is nobody on this Committee I think 
that would begin to be as dedicated to tribal sovereignty as I 
am. I don't say that out of brag, I say that because I have 
some of the best examples of Native Americans who, throughout 
the Spanish period, were mistreated, nearly exterminated, taken 
off their aboriginal lands, taken to missions, where three-
quarters of them died.
    Those who are left today in California have returned to 
their aboriginal lands. They have sought over the last 100 
years to regain some small portion of the reins that they 
operated under. But in every case, the land in trust that they 
enjoy today, small or large, represents some portion of the 
land that they can lay a legitimate claim to, going back a long 
time, actually long before our records.
    The Constitution says that we, the Congress, have the right 
to regulate commerce with foreign nations and among the several 
States and with Indian tribes. Now, it doesn't say that Indian 
tribes are American Indians. And there is a reason for that.
    I want to get to a number of questions. We don't have 
American Indians, we have Indians of aboriginal regions. They 
have independent rights in those regions. They do not have 
rights beyond those regions. I think that is well thought of in 
the Constitution.
    We have made exceptions. Certainly, the Trail of Tears 
created a situation in which we took people's historic areas 
and now thousands of them are living in Oklahoma and other 
States. We made allowances for that. We made allowances for our 
sins of the past, not for a selection in order to promote 
Indian gaming.
    Let me go through a couple of things. First of all, Mr. 
Artman, they have made a selection of land. They have not 
bought it in fee simple. Instead, they have made an agreement 
to purchase it. In your opinion, aren't they making the 
agreement to purchase that is really not contingent on land in 
trust, it is really contingent on Indian gaming, it is really 
contingent on the value added? They have offered enough money 
for land to be purchased not for tribal purposes, but directly 
for casino purposes, and that is the reason they haven't bought 
it in fee simple today, isn't that true?
    Mr. Artman. Not having seen the actual documents, the 
option document for the land, I can't speculate as to what the 
purposes are. This is something though, a practice that we 
often times see with regard to land in trust, that the option 
isn't exercised until the very last minute going into trust. 
Often times in those same situations those are related to 
gaming. And the condition precedent for gaming is that the land 
be in trust.
    Mr. Issa. In fact, land in trust is a procedure we do to 
take off the tax roll and into trust as a Federal asset on 
behalf of the tribe. We do that because of tribal purposes. 
Isn't that correct?
    Mr. Artman. Yes. By taking it into trust, certain 
privileges and immunities are accorded to that land.
    Mr. Issa. Didn't we pass the IGRA, the Indian Gaming 
Regulatory Act, anticipating that this would be one of many of 
a portfolio of activities that tribes on their reservations 
could do? The act in no way, shape, or form said go out and buy 
land. The act intended and required that it be their land in 
order to have a casino on it, land in trust. Even if they 
already had fee land that they owned, that was never available 
for gaming. Isn't that correct?
    Mr. Artman. The Indian Gaming Regulatory Act essentially 
frames an already existent right in States where tribes are 
located if there is Class III gaming already occurring in those 
States.
    Mr. Issa. So, in a nutshell, this is reservation shopping 
in absolute terms, correct? Is there anyone there that can 
dispute that this doesn't look, act and smell like reservation 
shopping for the purpose of Indian gaming? Even the others on 
the panel. Let's be honest, this is a selective selection not 
for purposes of Indian housing, not for a tribal health center; 
this is for an operation that in fact is a casino.
    Is anyone going to try to sit here, under oath, we are 
under oath, doesn't matter, lying to Congress is a felony, 
anyone going to tell me that is not true, or they believe by 
some convincing evidence that it is not true?
    Thank you. That is an important point to get across.
    Ms. Walker. I would like to respond, if I could. Thank you.
    Mr. Issa. Just to that question.
    Ms. Walker. Yes, sir.
    Mr. Issa. Do you say, yes or no, that this land is for some 
other significant purpose besides the primary purpose of 
operating a casino for benefit to the tribe? Yes or no.
    Ms. Walker. Yes, it is.
    Mr. Issa. What is that other purpose?
    Ms. Walker. The other purpose is to provide revenues to 
allow the tribe to support itself.
    Mr. Issa. Sorry. I asked the question. The correct answer 
is no other purpose than to provide revenue to the tribe. It is 
a casino to provide revenue to the tribe.
    Ms. Walker. It is a casino to provide revenue to the tribe.
    Mr. Issa. Okay, thank you. I have got very little time. The 
Chairman has been indulgent already, and there is a lot more to 
cover because this is an important constitutional issue and it 
is one that I think this Committee has to take very seriously.
    I represent--my State represents over 100 Indian tribes. We 
will just talk about Jamul, an Indian tribe near the Mexican 
border. They have less than four acres. They were driven nearly 
into extinction.
    Is there any reason, Mr. Artman, today that the Jamul 
Tribe, sitting near the Mexican border, in a rural, poor area, 
with only four acres at this time, should not be able to bid 
and buy this land against that tribe? It is 1,500 miles, 2,000 
miles. Is there any reason that this tribe is any more entitled 
to go 300 miles than my very poor Jamul Indians or my La Jolla 
Indians, neither one of whom have a location convenient for 
casino gaming and both of whom would benefit tremendously by 
this opportunity?
    Mr. Artman.
    Mr. Artman. I think if you look at the Indiana 
Reorganization Act and 151 regulations, clearly you are going 
off reservation to do something at this point. As I stated in a 
memo on January 3 to our regional director in our Office of 
Indian Gaming, we need to, by the mandates of the regulations 
that have been on the books for decades, give a greater 
scrutiny to any desire to move off reservation, and the further 
you go, the greater the scrutiny.
    Now if Jamul wanted to move to Charlotte Beach, I think 
certainly we would give that a lot of scrutiny, as we would 
anyone that would want to move 300 miles.
    Mr. Issa. Let's be a little more close in then. The Jamul 
Indians or the La Jolla Indians only have to go 30 or 40 miles 
to get to some very profitable casino sites that are already 
operating. Thirty or forty miles. If we allow this land in 
trust for the purpose of gaining revenue through casino gaming 
to occur 250, 300 miles away outside of an area that if the 
tribes were all still in tact the neighboring tribe would not 
let them in, not beyond maybe a meal. They would not be allowed 
to move in and take over land.
    If we allow it, is there any reason that we wouldn't have 
to essentially have a domino effect that every other poor tribe 
wanting revenue would be able to select downtown Los Angeles, 
downtown San Francisco, Dallas, Houston, any other city that 
was, let's say, within 250 miles? Is there any basis that 
somehow this tribe, these two tribes have any more entitlement 
than hundreds of tribes around the country who do not happen to 
have the ideal gaming location but do have a gaming location 
within 250 or 300 miles?
    Mr. Artman. I think you have hit upon one of our biggest 
concerns when we were developing the January memo, in that you 
are opening it up greatly for any other tribe to go great 
distances. If you allow one tribe to go a great distance, then 
you do begin to open it up for all tribes to be able to 
consider it.
    Certainly, there is going to be that opportunity to have a 
greater market elsewhere. When do you stop, what are the 
limitations. These are the things we consider all the time.
    Mr. Issa. I am going to ask one more question.
    Mr. Artman, it is a little outside of your direct 
knowledge, but I think you are the most appropriate to answer 
this, and I think the Chairman would appreciate this. We also 
sit together on an antitrust task force. We are very cognizant 
on this Committee that another Committee regulates commerce, 
but we deal with whether or not government or private 
enterprise operates in a monopolistic way.
    If we allow opportunistic travel outside of reasonable
    aboriginal territory, reasonable historic tribal lands, if 
we allow it to a group of Americans; in other words, we say 
well, because they are sovereign, we are going to let them make 
a deal with the State, not the Federal Government, deal with 
the State, and they are going to make these moves for purposes 
of putting casinos up, why in the world wouldn't--and I know 
Shelly Berkley was here a minute ago, and she is not a neutral, 
and I am, I don't happen to have private casinos in my 
district--why in the world wouldn't Harrah's and all the other 
major casino operators be able to cry foul, to say that in fact 
they should be able to put up right next door and around these 
reservations competing casinos; in other words, have virtually 
unfettered ability to compete, if in fact we are going to allow 
other Americans, and they may be the first Americans, and we do 
have a special obligation, but once we give up that special 
relationship that comes from their aboriginal claims and we 
simply say well, it's good for your people to do it and it is 
going to be somehow good for the economy, once we do that, why 
wouldn't this Committee consider that we have no right to allow 
the States to give to the Indians and keep private enterprise 
out, once we lose the justification of their unique 
relationship with this government?
    Mr. Artman. I think one of the large differences between 
Harrah's and any Indian tribe is the fact that the Indian tribe 
is a government, and inherent with the government rights comes 
a number of rights and responsibilities. One is the ability to 
engage in gaming similar to the State that it may be located in 
that does Class III. There is that limitation.
    Mr. Issa. But there is no State in the Union that operates 
Class III gaming. No State. They simply allow private 
enterprise to do it, and that is where the right comes from. I 
just want to make sure we understand.
    Mr. Artman. A lot of these are considered Class III. That 
is what creates that basis for many tribes. Looking at it from 
the governmental perspective, and this may help to answer a 
question, and you are right, I am not an antitrust expert, but 
one of the things we focus on, one of the concerns we have is 
the jurisdiction is exercised on the reservation, and that is 
the highest exercise of jurisdiction.
    Mr. Issa. Here, we are asked to create a reservation to 
create sovereignty, not in fact to codify a sovereignty that 
was taken away. This is not tribal land and is not being put 
into trust for purposes of being tribal land, it is being put 
into trust for purposes of being a casino.
    Mr. Artman. That is why we examine in that process very 
carefully what it will be used for, how far away it is from the 
reservation. That is why we are asking those critical 
questions, because we don't want to dilute the exercise of 
sovereignty for that tribe. That is a very important 
cornerstone.
    Mr. Issa. Mr. Artman, I am going to yield back after one 
last question to the Chair.
    In your opinion, this does not pass the sniff test of
    aboriginal tribal land, or the next closest reasonable 
thing, and therefore putting this into trust would not serve 
the legitimate sovereign rights of these Native Americans, 
these first citizens. Whether or not they go into casinos isn't 
the point. The point is this is not an appropriate tribal land, 
and it is not the closest land to their aboriginal legitimate 
claim, is it?
    Mr. Artman. We haven't had the opportunity to look at those 
documents because this bill and the prior court actions at the 
State level haven't given the United States the ability to 
engage in that process. Our issues, our concerns with this 
legislation are in the process. It doesn't allow it to go 
through the 151 process in which we look at those things, nor 
does it allow the compacts to go through the IGRA process also, 
where we would look at those things.
    Mr. Issa. Thank you, Madam Chair. I hope we have made the 
case that we do need to allow the regular order of this process 
in order to get the facts. I yield.
    Ms. Jackson Lee. [presiding]. Let me thank the witnesses as 
well. We have a vote on the floor. So I will quickly pose some 
questions, and forgive me if they have been asked and answered. 
I will ask for witnesses to have very succinct answers.
    Chief Cantu, just help me, does your tribe own any casinos 
at this time?
    Chief Cantu. Yes, we do. We own the Soaring Eagle Casino 
and Resort.
    Ms. Jackson Lee. Tell me, what do you think is the sense of 
the commitment of the compacts and the trust? Why do you feel 
that the legislation before us pierces that structure that has 
been put in place?
    Chief Cantu. Well, I think that, with Mr. Johnson's 
question, that the compact requires it, the type of off-
reservation gaming be approved by other tribes. The tribe 
agrees with Mr. Artman here that the concerns are bypassing the 
requirements of the compact.
    Ms. Jackson Lee. Which is that other tribes have to agree, 
and the tribes that are before us are asking that casinos be 
put off their reservations or their sites?
    Chief Cantu. That is correct. Our ancestral lands.
    Ms. Jackson Lee. On your ancestral lands.
    Chief Cantu. That is correct.
    Ms. Jackson Lee. I guess I am confused, Ms. Walker and Ms. 
Tierney. Why would you be doing this? I want to be open minded 
as well, but what is the basis behind at least challenging the 
compact?
    Ms. Walker. We don't believe we are challenging the 
compact. We believe what we are doing is consistent with the 
compact, and that is the nature of the testimony given before 
the Natural Resources Committee as well.
    Ms. Jackson Lee. Which says?
    Ms. Walker. That this is entirely consistent with the 
compact. The compact does not limit the number of casinos that 
individual tribes may have, and section 9 of the compact that 
the Governor chose not to enforce in the 2002 settlement 
agreements is a revenue-sharing provision.
    Ms. Jackson Lee. What about the requirement of having the 
other tribes agree to placement?
    Ms. Tierney. Section 9 of the 1993 compacts, which is one 
that both Bay Mills and the Sault Ste. Marie Tribes signed with 
the State and approved by the Secretary, does not require 
approval of the other tribes; it simply requires a revenue-
sharing if it is a two-part determination fee-to-trust request 
under section 20 of the Indian Gaming Regulatory Act.
    Ms. Jackson Lee. You are prepared to share revenue?
    Ms. Tierney. We agree with the State that section 9 of the 
compact is not implicated by our land settlement agreement with 
the State.
    Ms. Jackson Lee. But are you prepared to share revenue?
    Ms. Tierney. No, ma'am. It is not required.
    Ms. Jackson Lee. Are you in fact suggesting that casinos 
would be on Chief Cantu's land?
    Ms. Tierney. No, I am not. In fact, we have submitted 
testimony and documents to the National Resources Committee, 
which is also in my submission here today, which indicates that 
the aboriginal claims of the Saginaw Chippewa Tribe to the Port 
Huron area are not what Mr. Cantu has indicated.
    Ms. Jackson Lee. Let me ask Mr. Artman very quickly. I am 
going to call this hearing to an end. Can you explain how the 
U.S. would be liable for supporting these bills?
    Mr. Artman.
    Mr. Artman. If the land were taken into trust without going 
through the environmental review process as mandated under 
NEPA, we may be taking land into trust that comes with 
environmental liabilities. At that point, we would be accepting 
those liabilities once it goes into trust.
    Ms. Jackson Lee. So whatever liabilities would occur, the 
U.S. Government would have to be responsible for?
    Mr. Artman. That is correct. The way the bill is written, 
it doesn't give us the opportunity to afford those kind of 
environmental reviews.
    Ms. Jackson Lee. Let me thank you very much, all witnesses, 
for your testimony.
    Without objection, Members will have 1 week to submit any 
additional written questions, for which we will forward and ask 
that you answer as promptly as you can to be made part of the 
record. Without objection, the record will remain open for 1 
week for the submission of any other additional materials.
    The hearing has helped enlighten the many procedural 
irregularities involved in these two land deals. Strong 
concerns have been raised about the shortcuts that hack through 
important legal steps that were established to give all voices 
a chance to be heard and to give all issues their due 
consideration and about the potentially indiscriminate spread 
of casino gaming into all corners of our country if a precedent 
like this is allowed to gain a foothold.
    The concerns of the Chairman about these land deals and the 
two bills that would bless them for casinos, in disregard of 
established Federal legal protections and in defiance of the 
express wishes of Michigan voters, have only increased this 
morning. The Committee will consider the next appropriate steps 
accordingly. We thank the witnesses all. You have all been 
heard.
    With that, the hearing is now adjourned.
    [Whereupon, at 1:40 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
